           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  THE SOCIAL SECURITY ADMINISTRATION’S
   DECISIONS TO TERMINATE COLLECTION
     EFFORTS FOR OLD-AGE, SURVIVORS
 AND DISABILITY INSURANCE OVERPAYMENTS


    March 2006      A-13-05-15029




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   March 22, 2006                                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Decisions to Terminate Collection Efforts for
        Old-Age, Survivors and Disability Insurance Overpayments (A-13-05-15029)


        OBJECTIVE

        Our objective was to determine whether the Social Security Administration’s (SSA)
        decisions to terminate collection efforts for Old-Age, Survivors and Disability Insurance
        (OASDI) overpayments recorded in the Recovery of Overpayments, Accounting and
        Reporting (ROAR) system were in accordance with its policies and procedures.

        BACKGROUND

        SSA’s stated mission is to advance the economic security of the nation’s people through
        leadership in managing America’s Social Security programs. To accomplish this, SSA
        has promulgated four comprehensive strategic goals, one of which is to ensure superior
        stewardship of Social Security programs and resources. To advance that strategic goal,
        SSA has made the improvement of debt management a strategic objective with specific
        outcomes measured in the percent of outstanding debt that is in a collection
        arrangement.1 In Fiscal Years (FY) 2003 and 2004, SSA reported that 39.8 and
        42.2 percent, respectively, of OASDI program debt was in a collection arrangement.

        SSA defines an overpayment as the amount an individual received for any period that
        exceeded the total amount that should have been paid for that period. Once a
        determination of overpayment is made, the overpayment is a debt owed to the
        Government.2 As a part of its stewardship responsibilities, SSA needs to prevent
        overpayments, and, when they do occur, take actions to recover them.




        1
         SSA defines OASDI program debt in a collection arrangement as a debt that is scheduled for collection
        by benefit withholding or installment payment (SSA’s FY 2005 Annual Performance Plan page 27).
        2
         SSA’s Programs Operations Manual (POMS), GN 02201.001A, see also section 204(a) of the Social
        Security Act, 42 U.S.C. §404(a), 20 C.F.R. §§ 404.501-.545.
Page 2 - The Commissioner


When SSA determines an overpayment has been made, it must notify all individuals
from whom it will seek recovery of the overpayment. The notice explains the individual
has the right to contest the determination or request a waiver of the overpayment.3 If
the Agency’s overpayment decision is not changed or a waiver is not granted, SSA
must pursue recovery by adjusting current benefit payments or seeking collection
through one of several methods described in its policies and procedures.4 SSA also
has the authority to discontinue recovery efforts if the overpayment is not over
$100,000 and was not obtained by fraud.5

SSA policies and procedures provide guidelines for pursuing collection of an
overpayment and when recovery efforts may be discontinued. Full and immediate
refund is the preferred method of recovery.6 The next option is to seek recovery by
adjusting benefits of the beneficiary who was overpaid. If the person who was overpaid
is not receiving benefits, other individuals living at the same address as the primary
beneficiary who are receiving benefits on the same earnings record are liable for
repaying the debt to the extent of the benefits they are receiving.7 These individuals are
referred to as contingently liable beneficiaries.8

When there are no benefits to adjust for debt collection, SSA sends the debtor a letter
requesting payment in full or by installments. If unsuccessful, SSA uses an automated
system to generate a series of progressively stronger follow-up notices. If the debt
remains delinquent, SSA pursues debt collection with the assistance of other
organizations, such as the Department of the Treasury, to offset the debt from other
Federal benefit payments.9 Agency policy also allows for reporting the debt to credit
bureaus or employers for wage garnishment.10




3
    20 Code Federal Regulations (CFR) 404.502a.
4
    42 U.S.C. §404, 20 C.F.R. §§ 404.502, 404.520, 404.527, 422.310, 422.403.
5
 The Federal Claims Collection Act of 1966, 31 U.S.C. 3711(a)(3) and (b)(1), provides that SSA has
authority to suspend or terminate collection efforts when the overpayment does not exceed $100,000 and
did not result from fraud.
6
    POMS, GN 02210.150A.
7
    POMS. GN 02210.217A.1.a, GN 02205.001.
8
    POMS, GN 02205.005A.
9
     20 C.F.R. §§ 404.520
10
     SSA FY 2003 Performance and Accountability Report, 20 C.F.R. §§ 422.301-.445.
Page 3 - The Commissioner


When repayment cannot be arranged and pursuing a civil lawsuit is not appropriate,
SSA may discontinue collection efforts under any one of the following conditions:
(1) the debtor cannot repay, (2) the debtor cannot be located after a diligent search, or
(3) the costs of collection efforts are likely to exceed the cost of the amount recovered.11
When debt collection is discontinued for one of these reasons, the debt is written off.
However, the debt is still subject to future collection and may be recovered, in whole or
in part, if the debtor returns to payment status or through the use of external collection
sources.

SSA uses ROAR to control the recovery and collection of its overpayments, misused
fund cases, conserved funds cases, and civil monetary penalty cases. For example,
ROAR contains overpayment amounts, collection status of overpayments, remittance
agreements, and information about individuals liable for the debts. Further, ROAR
discontinues debt collection activities. When this occurs, the special transaction code
“TC71” is recorded in the system.

RESULTS OF REVIEW
Our review indicated that, in general, SSA terminated collection efforts for
overpayments in accordance with its policies and procedures. However, we found
compliance problems in 29 (11.6 percent) of the debt termination records we reviewed.
SSA terminated collection efforts for some overpayments when contingently liable
beneficiaries were receiving benefit payments. There was no indication that SSA
sought to adjust these benefit payments before it terminated collection efforts. We also
found some records where, contrary to policy, there was no documentation to indicate
SSA (1) checked for an estate for possible recovery in cases where the debtor had died
or (2) made required contacts or attempted contacts with the debtor before terminating
collection efforts.

We obtained a November 200412 electronic data extract of 61,564 OASDI overpayment
terminations recorded in ROAR in FY 2003. This data extract represented about
$285 million in OASDI overpayment terminations. From this population, we randomly
selected 250 overpayment termination records totaling $1,136,179 for review (see
Appendices B and C).

Based on the results of our review, we estimate that, in FY 2003, about 7,100 decisions
were made in which SSA terminated collection efforts for OASDI overpayments not in
accordance with its own policies and procedures or lacking required documentation.
We estimate these decisions represent about $29.6 million in OASDI debt.13

11
     POMS, GN 02215.235, 31 U.S.C. § 3711, 20 C.F.R. §404.515(a).
12
     The data extract was obtained from the Social Security records as of November 24, 2004.
13
  This figure represents terminated collection efforts at a given point in time. Collection efforts may go in
and out of that status on many occasions, even within the same FY. The overpayment may still be
recovered even after a termination of collection action per POMS, GN 02215.250A.
Page 4 - The Commissioner


                                Of the 250 OASDI debt termination records reviewed, we
     Debt Terminated            found SSA terminated 13 debts (5.2 percent) when
     When Contingently          contingently liable beneficiaries were collecting benefit
     Liable Beneficiaries       payments. These 13 debt termination records totaled about
     Existed                    $26,000 in overpayments.

We examined termination records and could not find documentation that SSA
considered contingent liability and found it not applicable. According to SSA policies,14
collection efforts should be pursued against contingently liable beneficiaries before
collection efforts are terminated.

For example, 1 of the 13 records we examined involved a primary beneficiary who had
a $10,396 overpayment. Collection efforts were terminated in August 2003. At the
time, the primary beneficiary had a spouse who was collecting benefit payments on the
same earnings record. The spouse continued to receive benefit payments without
adjustment while overpayment collection efforts were terminated.

SSA staff acknowledged there are no systems controls to prevent a termination of
collection action while a potentially contingently liable beneficiary is in current pay
status. Agency staff explained SSA completes an annual “automated sweep” of its
beneficiaries’ records to identify debt collection that has been terminated, but either the
debtor became reentitled to benefits or a contingently liable beneficiary was entitled on
the same earnings record. SSA reported its FY 2003 automated sweep produced
10,649 alerts totaling about $17.4 million in overpayments in which collection efforts
were terminated. These alerts were referred to SSA operational staff for further review.
SSA staff indicated the annual automated sweep would identify overpayments where
the contingently liable person was collecting benefit payments and produce alerts to
determine whether collection efforts should be resumed. However, we were unable to
obtain management information to determine whether operational staff reviewed these
alerts and took appropriate action.

Also, the Debt Management System 15 (DMS) asks a series of questions before debt
can be terminated to facilitate the consideration of collecting overpayments from
contingently liable beneficiaries. However, the system does not prevent the termination
of overpayments when there are contingently liable beneficiaries to pursue for possible
debt collection. Further, DMS does not generate evidence that staff considered this
issue or why collection efforts were not pursued against these beneficiaries.




14
     POMS, GN 02205.005, GN 02210.007, GN 02210.015.
15
   DMS was implemented as part of SSA’s plans to modernize all of SSA programs/systems that are
responsible for controlling, maintaining, and accounting for programmatic debts. The modernization was
in response to the President’s directive that all Federal agencies begin an aggressive program in the area
of debt collection.
Page 5 - The Commissioner


Based on the results of our review, we estimate that, in FY 2003, about
3,200 decisions were made in which SSA terminated collection efforts when
contingently liable beneficiaries were collecting benefits. We estimate these decisions
represent about $6.5 million in OASDI debt.

                           Of the 250 OASDI debt termination records reviewed, we found
Lack of Required
                           16 (6.4 percent) lacked required documentation before
Documentation
                           collection efforts were terminated. These 16 debt termination
Before Terminating
                           records totaled about $94,000 in overpayments. In 12 of the
Debt
                           16 termination records, the debtors had died, but we could not
                           find documentation that SSA determined whether an estate
existed as a possible source for debt recovery. Agency policy states that this is
required for debts of $600 or more before collection efforts can be terminated.16 Also, in
4 of the 16 debt termination records examined, collection efforts were terminated
without appropriate documentation that the debtors were contacted regarding
repayment of the debt. SSA policies and procedures for terminating collection efforts
require that efforts to collect a debt (for example, report of face-to-face contacts,
documentation of financial circumstances, correspondence to and from the debtor) be
documented in SSA’s records.17 We examined the DMS records and the claimant
folders and found there was no documentation indicating SSA made certain contacts
before it terminated collection efforts.

The following are examples of records we examined where we found missing required
documentation. In one instance, the primary beneficiary died in July 2002. SSA
terminated collection efforts on the $17,039 overpayment in March 2003. We were
unable to find evidence SSA determined whether an estate existed before it terminated
collection efforts. In another instance, a primary beneficiary found no longer disabled
had collection efforts terminated for a $4,473 overpayment in April 2003. We found no
documentation of required debtor contacts with the beneficiary.

Based on the results of our review, we estimate that, in FY 2003, about 3,900 decisions
were made in which SSA terminated collection efforts without the required
documentation. We estimate these decisions represent about $23.1 million in OASDI
debt.




16
     POMS, GN 02215.050.
17
     POMS, GN 02215.235.
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA needs to improve compliance with its policies and procedures concerning
decisions to terminate collection efforts for OASDI overpayments. Enhanced
compliance could increase the amount of debt collected. Improvement in OASDI debt
collection would help SSA in achieving its strategic objective of improving its debt
management, as well as strengthen its stewardship of the Social Security programs.

To help improve compliance with OASDI debt termination policies and procedures, we
recommend that SSA:

1. Take action to ensure compliance with existing policies and procedures regarding
   contingently liable beneficiaries before terminating collection actions, such as
   periodic issuance of reminders to staff.

2. Take action to ensure compliance with existing policies and procedures to document
   contacts before terminating collection efforts, such as periodic issuance of reminders
   to staff. These include contacts with the debtor, and where the debtor is deceased,
   contacts checking for an estate when the overpayment was $600 or more.

AGENCY COMMENTS
The Agency agreed with our recommendations. The full text of the Agency’s comments
is included in Appendix D.




                                             S
                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
DMS     Debt Management System
FY      Fiscal Year
OASDI   Old-Age, Survivors and Disability Insurance
POMS    Programs Operations Manual System
ROAR    Recovery of Overpayments, Accounting and Reporting System
SSA     Social Security Administration
                                                                         Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed Federal laws, regulations, and Social Security Administration (SSA)
    policies and procedures governing overpayments.

•   Obtained a data extract for termination of collection effort transactions for distinct
    overpayment events recorded on the Recovery of Overpayments, Accounting and
    Reporting (ROAR) system in Fiscal Year 2003 (population).

•   Selected a sample of 250 transactions from the population and obtained the
    following records for each: the Master Beneficiary Record, including the ROAR
    record; the Debt Management System record; and the claims folder when available.

•   Reviewed the above records and evaluated documentation for compliance with
    SSA’s policies and procedures.

We determined computer-processed data to be sufficiently reliable for their intended
use. Further, any data limitations are minor in the context of this assignment, and the
use of the data should not lead to an incorrect or unintentional message. The electronic
data used in our audit were primarily extracted from the Master Beneficiary Record, the
ROAR system and the Debt Management System. We tested for accuracy by
comparing data in the ROAR system and the Debt Management System and found no
exceptions.

We conducted field work from October 2004 through August 2005 in Baltimore,
Maryland. The entity audited was the Office of the Deputy Commissioner for
Operations. We conducted this audit in accordance with generally accepted
government auditing standards.
                                                                                      Appendix C

Sampling Methodology and Results
We obtained a November 20041 electronic data extract from the Social Security
Administration’s Recovery of Overpayments, Accounting and Recovery (ROAR) system.
The extract included all Old Age, Survivors and Disability Insurance (OASDI) records
that had a termination of collection efforts transaction code “TC 71” in Fiscal Year (FY)
2003. Records containing duplicate TC 71 codes were eliminated. The extract
produced 61,564 records totaling about $285 million. From this population, we
randomly selected 250 overpayment termination records totaling $1,136,179 for review.
For each sample debt termination record, we reviewed the Master Beneficiary Record,
ROAR system data, Debt Management System record, and, where available, the claims
folder.

Projecting our sample results to the population, we estimate that, for about 11.6 percent
of the time, SSA terminated collection efforts for OASDI overpayments not in
accordance with its own policies and procedures; or Agency records lacked required
documentation to evidence that SSA followed its policies and procedures. In FY 2003,
we estimated this occurred about 7,141 times (3,201 + 3,940) for about $29.6 million
($6.5+ $23.1) in OASDI debt.


    Attribute Appraisal: Debt Terminated When Contingently Liable Beneficiaries
    Existed
    Total Population                                                                          61,564
    Sample Size                                                                                 250
    Number of Debts Terminated When Contingently Liable Beneficiaries Existed                    13
    Projection of Terminated Debt When Contingently Liable Beneficiaries Existed in
    Population:
        Lower Limit                                                                            1,912
        Point Estimate                                                                         3,201
        Upper Limit                                                                            5,008


Note: Projections were calculated at the 90-percent confidence level.




1
    The data extract was obtained from the Social Security records as of November 24, 2004.


                                                    C-1
    Attribute Appraisal: Lack of Documentation Evidencing Contacts Before
                               Terminating Debt
Total Population                                                                          61,564
Sample Size                                                                                 250
Number of Debts Terminated That Lacked Documentation                                         16
Projection of Debts Terminated That Lacked Documentation in Population:
    Lower Limit                                                                            2,499
    Point Estimate                                                                         3,940
    Upper Limit                                                                            5,881

  Note: Projections were calculated at the 90-percent confidence level.


 Variable Appraisal: Debt Terminated When Contingently Liable Beneficiaries
                                  Existed
Total Population                                                                         61,564
Total Sample Size                                                                           250
Total Dollars of Debt Terminated When Contingently Liable Beneficiaries Existed in
                                                                                        $26,264
Sample
Projected Value of Debt Terminated When Contingently Liable Beneficiaries
Existed:
    Lower Limit                                                                       $1,527,271
    Point Estimate                                                                    $6,467,626
    Upper Limit                                                                      $11,407,980

  Note: Projections were calculated at the 90-percent confidence level.


    Variable Appraisal: Lack of Documentation Evidencing Contacts Before
                               Terminating Debt
Total Population                                                                         61,564
Total Sample Size                                                                           250
Total Dollars of Debt Terminated That Lacked Documentation in Sample                    $93,662
Projected Value of Terminated Debt That Lacked Documentation:
    Lower Limit                                                                       $8,942,747
    Point Estimate                                                                   $23,064,829
    Upper Limit                                                                      $37,186,912



  Note: Projections were calculated at the 90-percent confidence level.


                                                C-2
                  Appendix D
Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:       February 27, 2006                                                    Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report "The Social Security Administration’s
            Decision to Terminate Collection Efforts for Old-Age, Survivors and Disability Insurance
            Overpayments” (A-13-05-15029) --INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE SOCIAL SECURITY ADMINISTRATION'S DECISION TO
TERMINATE COLLECTION EFFORTS FOR OLD-AGE, SURVIVORS AND
DISABILITY INSURANCE OVERPAYMENTS" (A-13-05-15029) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report. We agree with the
intent of the report and its recommendations. However, we would note that the Program Service
Centers (PSC) have issued local procedures in reference to estate development. For example, on
February 24, 2005, the Great Lakes Program Service Center issued operational bulletin # 05-13
“Overpayment-Estate processing.” This guidance states, “Estate development should be initiated
no earlier than 60 days and no later than 2 years after the debtor's death. If more than 2 years has
elapsed since the debtor's death, pursue recovery from another person(s) or terminate collection
efforts if there is no such person(s).” It is not clear if this provision was taken into consideration
during this audit.

In an effort to continue to protect Social Security Administration programs, the Regional Offices
and PSCs periodically issue Program Circulars and Operational Bulletins, respectively, to clarify
Programs Operations Manual System instructions and procedures. In recent months, both have
issued clarifications addressing the processing of Old-Age, Survivors and Disability Insurance
(OASDI) overpayments and proper documentation requirements. As examples, on September
13, 2005, the Dallas Regional office issued DAL 05-06 RSI regional circular “Proper
Documentation for Title II Waivers” and on December 5, 2005, the Great Lakes Program Service
Center issued operational bulletin # 05-121 “Overpayments – Termination of Collection,
Compromise, and Suspension Actions and Misuse Abandonment for Debts Over $20,000.”

Several workgroups have also been assembled to develop ways to emphasize proper processing
of OASDI overpayments and address proper documentation. Desk guides, such as the "DMS
Processing Guide" and the "T2 Waiver Process Handbook" prepared by the Philadelphia Region
and last updated in December 2005 and the "Overpayment Guide" compiled by the Denver
Region, are available on regional websites and are part of the national resources kits.

As a result of other recent audits, Regional Office program teams have conducted conference
calls with their field components regarding what procedure and policy to use when processing
overpayments, including contingently liable persons. This information is also available on the
national resource kits and regional websites.

To ensure that technicians follow proper procedure and documentation requirements prior to
terminating collections, Central Office, Regional Offices and PSCs will continue to issue
reminders on the policies and procedures for processing OASDI overpayments with attention
focusing on both procedure and the proper documentation required.

Our specific responses to the report's recommendations are provided below.




                                               D-2
Recommendation 1

Take action to ensure compliance with existing policies and procedures regarding contingently
liable beneficiaries before terminating collection actions, such as periodic issuance of reminders
to staff.

Response:

We agree. The Agency will issue a reminder in the form of an Administrative Message and will
request that the Office of Training (OT) present it during one of the transmittal training broadcast
sessions no later that May 2006.

Recommendation 2

Take action to ensure compliance with existing policies and procedures to document contacts
before terminating collection efforts, such as periodic issuance of reminders to staff. These
include contacts with the debtor and, where the debtor is deceased, contacts checking for an
estate when the overpayment was $600 or more.

Response:

We agree. The Agency will issue a reminder in the form of an Administrative Message and will
request that OT present it during one of the transmittal training broadcast sessions no later that
May 2006.




                                              D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

 Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

 Randy Townsley, Audit Manager, (410) 966-1039


Acknowledgments
In addition to those named above:

   Kimberly Beauchamp, Writer/Editor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-05-15029.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
